No.
Cheri Lynne Melchione
Petitioner,
v.
Timothy Temple
Respondent.

CERTIFICATE OF COMPLIANCE
I hereby certify that the accompanying Petition
for Writ of Certiorari in Melchione v. Temple,
complies with the word count limitations of Supreme
Court Rule 33(g) in that it contains 8954 words,
based on the word-count function of Microsoft Word —
Office, including footnotes and excluding material
not required to be counted by Rule 33(d).
I declare under penalty of perjury the foregoing
is true and correct.

Cheri Melchione, pro se
1818 MLK Blvd #129
Chapel Hill NC 27514
919-240-5100

RECEIVED
APR 2 1 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

